Page 2 – Kerry Weems


The State agency did not always claim reimbursement for services provided by the Hospital in
accordance with Federal and State laws and regulations or with the approved provisions of the
UCCP plan. Of the $8,050,698 in costs claimed for services provided to 100 sampled patients,
$263,243 was allowable. However, the State agency claimed $7,787,455 of unallowable costs
for 98 of the 100 sampled patients, including:

   •   97 patients whose care was not covered under the Medicaid plan because they were
       between the ages of 21/22 and 64,

   •   11 patients who did not receive services on the dates claimed,

   •   11 patients whose costs were paid by other sources, and

   •   2 patients whose costs were reimbursed from the Hurricane Rita uncompensated care
       pool but who were not evacuees.

Some patients’ costs were unallowable for more than one of these reasons. Based on our sample
results, we estimated that the State agency claimed unallowable costs totaling at least
$19,780,522.

We recommend that the State agency refund to CMS the estimated $19,780,522 in unallowable
costs claimed. Because the State’s authorization to obtain Federal reimbursement for hurricane-
related uncompensated care has ended, we are not making procedural recommendations.

In its comments on our draft report, the State agency did not address our recommendation but
disagreed with our findings. The State agency said that it intended that its expenditure authority
under the section 1115 demonstration project should be interpreted to include inpatient
psychiatric services for all Hospital patients, including those between ages 22 and 65. The State
agency also said that it had followed its processes to ensure that payments were not duplicated.

Nothing in the State agency’s comments caused us to revise our findings or recommendation.
The State agency should refund the entire $19,780,522 to CMS.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Gordon L. Sato, Regional Inspector General for Audit Services, Region VI, at (214) 767-8414
or through e-mail at Gordon.Sato@oig.hhs.gov. Please refer to report number A-06-07-00024.


Attachment
Page 2 – Mr. Alan Levine


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF EAST LOUISIANA
STATE HOSPITAL’S HURRICANE-
 RELATED UNCOMPENSATED
       CARE CLAIMS




                    Daniel R. Levinson
                     Inspector General

                      October 2008
                      A-06-07-00024
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
' 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

In response to Hurricane Katrina, section 6201 of the Deficit Reduction Act of 2005 authorized
Federal funding for the total costs of medically necessary uncompensated care furnished to
evacuees and affected individuals without other coverage in eligible States; i.e., States that
provided care to such individuals in accordance with section 1115 projects.

Pursuant to section 1115 of the Social Security Act, the Centers for Medicare & Medicaid
Services (CMS) approved Louisiana’s request for demonstration authority related to Hurricanes
Katrina and Rita. For Hurricane Katrina evacuees and affected individuals, CMS approved an
uncompensated care pool to reimburse providers for medically necessary services provided to
individuals without other coverage. CMS subsequently authorized the State to operate an
uncompensated care pool for Hurricane Rita evacuees without other coverage. In approving the
State’s uncompensated care pool plan (the UCCP plan), CMS authorized reimbursement for
uncompensated care provided to Katrina evacuees and affected individuals from August 24,
2005, through January 31, 2006, and to Rita evacuees from September 23, 2005, through
January 31, 2006. The pool was 100 percent federally funded.

Prior to CMS’s approval of the UCCP plan, Louisiana published an emergency regulation stating
that reimbursement from the uncompensated care pool was available for specified services
covered under the State Medicaid plan. In approving the UCCP plan, CMS specified that
payment would be made in accordance with both the Medicaid plan and the UCCP plan and that
expenditures above those limits were not reimbursable. The Medicaid plan limits inpatient
psychiatric coverage for patients in institutions for mental diseases to those who are under age
21, and in some cases under age 22, as well as to those who are age 65 or older.

As of December 31, 2006, the Louisiana Department of Health and Hospitals (the State agency)
reported $123.2 million in uncompensated care reimbursement to 834 health care providers.
East Louisiana State Hospital (the Hospital), an institution for mental diseases, received
$21.3 million of this reimbursement.

OBJECTIVE

Our objective was to determine whether the State agency claimed reimbursement for services
provided by the Hospital in accordance with Federal and State laws and regulations and with the
approved provisions of the UCCP plan.

SUMMARY OF FINDINGS

The State agency did not always claim reimbursement for services provided by the Hospital in
accordance with Federal and State laws and regulations or with the approved provisions of the
UCCP plan. Of the $8,050,698 in costs claimed for services provided to 100 sampled patients,
$263,243 was allowable. However, the State agency claimed $7,787,455 of unallowable costs
for 98 of the 100 sampled patients, including:



                                               i
   •   97 patients whose care was not covered under the Medicaid plan because they were
       between the ages of 21/22 and 64,

   •   11 patients who did not receive services on the dates claimed,

   •   11 patients whose costs were paid by other sources, and

   •   2 patients whose costs were reimbursed from the Hurricane Rita uncompensated care
       pool but who were not evacuees.

Some patients’ costs were unallowable for more than one of these reasons.

The State agency claimed the unallowable costs because it (1) did not have procedures to ensure
that it claimed uncompensated care costs only for services covered under the Medicaid plan;
(2) relied on the Hospital to verify that the costs claimed were based on actual inpatient days;
(3) did not instruct the Hospital to analyze its uncompensated care claims to determine whether
payments had been received from other sources; and (4) did not have procedures to verify that
patients whose costs were claimed under the Hurricane Rita uncompensated care pool were, in
fact, evacuees.

Based on our sample results, we estimated that the State agency claimed unallowable costs
totaling at least $19,780,522.

RECOMMENDATION

We recommend that the State agency refund to CMS the estimated $19,780,522 in unallowable
costs claimed. Because the State’s authorization to obtain Federal reimbursement for hurricane-
related uncompensated care has ended, we are not making procedural recommendations.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency did not address our recommendation but
disagreed with our findings. The State agency said that it intended that its expenditure authority
under the section 1115 demonstration project should be interpreted to include inpatient
psychiatric services for all Hospital patients, including those between ages 22 and 65. The State
agency also said that it had followed its processes to ensure that payments were not duplicated.
The State agency’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in the State agency’s comments caused us to revise our findings or recommendation.
The State agency should refund the entire $19,780,522 to CMS.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Section 1115 Hurricane-Related Demonstration Projects ....................................1
              Louisiana’s Approved Uncompensated Care Pool Plan .......................................1
              Reimbursement to Institutions for Mental Diseases .............................................2
              East Louisiana State Hospital ...............................................................................3

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................3
               Objective ...............................................................................................................3
               Scope ...................................................................................................................3
               Methodology .........................................................................................................3

FINDINGS AND RECOMMENDATION................................................................................5

          UNALLOWABLE COSTS FOR SAMPLED PATIENTS ..............................................5
              Services Not Covered Under the Medicaid Plan ..................................................5
              Services Not Received ..........................................................................................6
              Reimbursement Received From Other Sources....................................................6
              Hurricane Rita Costs Claimed for Nonevacuees ..................................................7

          TOTAL UNALLOWABLE REIMBURSEMENT...........................................................7

          RECOMMENDATION ....................................................................................................7

          STATE AGENCY COMMENTS.....................................................................................7

          OFFICE OF INSPECTOR GENERAL RESPONSE .......................................................8

APPENDIXES

          A – SAMPLE DESIGN AND METHODOLOGY

          B – SAMPLE RESULTS AND ESTIMATES

          C – REASONS FOR UNALLOWABLE COSTS FOR EACH SAMPLED PATIENT

          D – STATE AGENCY COMMENTS




                                                                   iii
                                      INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Section 1115 Hurricane-Related Demonstration Projects

Section 1115 of the Act permits the Secretary to authorize demonstration projects to promote the
objectives of the Medicaid program. Pursuant to section 1115, CMS may waive compliance with
any of the requirements of section 1902 of the Act and provide Federal matching funds for
demonstration expenditures that would not otherwise be included as expenditures under the State
Medicaid plan.

In response to Hurricane Katrina, CMS announced that States could apply for section 1115
demonstration projects to ensure the continuity of health care services for hurricane victims. A
State with an approved hurricane-related section 1115 demonstration project was eligible under
section 6201 of the Deficit Reduction Act of 2005 for Federal payment of the total costs of
uncompensated care incurred for medically necessary services and supplies furnished to
Hurricane Katrina evacuees and affected individuals who did not have other coverage for such
assistance.

Louisiana’s Approved Uncompensated Care Pool Plan

In a November 10, 2005, letter, CMS approved Louisiana’s request for section 1115
demonstration authority and an uncompensated care pool to reimburse providers for medically
necessary services and supplies for Hurricane Katrina evacuees who did not have insurance
coverage or other available options. In a March 24, 2006, letter, CMS approved Louisiana’s
uncompensated care pool plan (the UCCP plan) and authorized reimbursement from the pool for
services provided to Katrina evacuees and affected individuals from August 24, 2005, through
January 31, 2006. The UCCP plan proposed to reimburse providers that incurred
uncompensated care costs for which there was no other source of payment. In the approval
letter, CMS specified that payment would be made in accordance with both the State Medicaid
plan and the UCCP plan and that expenditures above those limits were not reimbursable.

In an April 28, 2006, letter, CMS also authorized Louisiana to operate an uncompensated care
pool to reimburse providers serving Hurricane Rita evacuees who were not eligible for Medicaid
or the State Children’s Health Insurance Program and who did not have other health insurance
coverage. The letter required the State to adhere to the same methodology for operations and
program integrity as described in the Hurricane Katrina approval. The Hurricane Rita pool was



                                                1
approved for medically necessary services provided to evacuees from September 23, 2005,
through January 31, 2006. The pool was funded through an interagency agreement between
CMS and the Federal Emergency Management Agency’s National Disaster Medical System and
was limited to the funding available under that agreement.

Louisiana’s UCCP plan listed the broad categories of services that would be covered through the
uncompensated care pool, including inpatient psychiatric services, and stated that payments
would be based on the Louisiana Medicaid rate. Only Medicaid providers were eligible for
reimbursement. The UCCP plan also provided that all claims would be reviewed prior to any
payment and that applicable Federal and State laws and regulations would govern the
prepayment investigation.

On March 20, 2006, prior to CMS’s approval of the UCCP plan, the State published an
emergency regulation to govern reimbursement from the uncompensated care pool. 1 Pursuant to
the regulation, reimbursement was available for specified services covered under the State
Medicaid plan, including inpatient psychiatric services. The State later published a final rule
affirming that coverage through the uncompensated care pool was available for services covered
under the Medicaid plan. 2

The Louisiana Department of Health and Hospitals (the State agency) administered the
uncompensated care pool, which was 100 percent federally funded. As of December 31, 2006,
the State agency reported $123.2 million in uncompensated care reimbursement to 834 health
care providers, including State-operated inpatient psychiatric facilities. East Louisiana State
Hospital (the Hospital), located in Jackson, received $21.3 million of this reimbursement based
on claims that the State agency submitted to CMS.

Reimbursement to Institutions for Mental Diseases

The Act provides that Federal reimbursement is not available under the State Medicaid plan for
services furnished to certain patients in institutions for mental diseases (IMD). Clause (B) in the
paragraph following section 1905(a)(28) of the Act excludes from the definition of medical
assistance “any such payments with respect to care or services for any individual who has not
attained 65 years of age and who is a patient in an institution for mental diseases.” However, the
State may opt to cover inpatient psychiatric hospital services for individuals under age 21.
Pursuant to section 1905(h) of the Act, a State that elects to cover these services for individuals
under age 21 may, in some cases, cover individuals up to age 22. Louisiana’s approved
Medicaid plan includes such coverage. Therefore, Federal reimbursement to the State is not
available for services furnished to IMD patients between the ages of 21/22 and 64 under the
Medicaid State plan.

Federal regulations (42 CFR § 435.1010) define an IMD as a hospital, nursing facility, or other
institution of more than 16 beds that is primarily engaged in providing diagnosis, treatment, or
care of persons with mental diseases.

1
    32 La. Reg. 377 (March 20, 2006).
2
    32 La. Reg. 1902 (October 20, 2006) (to be codified at La. Admin. Code, Title 50, part XXII, Chapters 41–53).


                                                           2
East Louisiana State Hospital

The Hospital is a State-operated inpatient psychiatric facility that provides services to individuals
age 18 or over who are chronically mentally ill or who require intermediate or long-term
hospitalization. The Hospital meets the definition of an IMD.

During our audit period, the Hospital received reimbursement of $581.11 per day for inpatient
psychiatric services. Prior to and following the dates of service covered by the UCCP plan, costs
incurred by the Hospital for treating patients who had no other source of payment were paid with
State funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed reimbursement for services
provided by the Hospital in accordance with Federal and State laws and regulations and with the
approved provisions of the UCCP plan.

Scope

Our audit covered the $21.3 million in uncompensated care claims that the State agency paid to
the Hospital and claimed for Federal reimbursement as of December 31, 2006. These claims had
dates of service from August 24, 2005, through January 31, 2006.

We did not review the State agency’s or the Hospital’s overall internal control structures. We
limited our review to obtaining an understanding of the policies and procedures used to identify
and claim uncompensated care costs, account for billable inpatient days, and collect payments
for patients who had another source of income.

We conducted our fieldwork at the Hospital in Jackson, Louisiana, and at the State agency in
Baton Rouge, Louisiana.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal and State laws and regulations, the approved State Medicaid
        plan, CMS approval letters, the approved section 1115 demonstration, and the approved
        UCCP plan;

   •    interviewed State agency and Hospital officials to (1) gain an understanding of claim
        procedures and supporting documentation and (2) determine the source of payment for
        the costs incurred for treating sampled patients before and after the dates of service
        claimed under the UCCP plan;




                                                 3
       •    obtained the State agency’s database of uncompensated care claims paid to providers as
            of December 31, 2006, which totaled $123.2 million;

       •    verified that all paid uncompensated care claims were included on the “Quarterly
            Medicaid Statement of Expenditures for the Medical Assistance Program,” Form CMS-
            64, for our audit period;

       •    extracted from the State agency’s database a population of 266 patients with claims
            exceeding $1,000 each and totaling $21.3 million paid to the Hospital for the period
            August 24, 2005, through January 31, 2006; 3

       •    selected, as detailed in Appendix A, a simple random sample of 100 of these patients,
            representing claims totaling $8,050,698;

       •    reviewed the claims and supporting documentation (patient financial files and medical
            records) and Medicare’s Common Working File for each sampled patient to verify that:

                o the services claimed were covered under the Medicaid plan,

                o the patient received services on the dates of service claimed and the claims were
                  for eligible dates of service,

                o the patient did not have another source of payment available for the services
                  under Medicare, Medicaid, private insurance, or a State-funded health insurance
                  program,

                o the amount claimed for the patient was accurately calculated,

                o the patient’s home address was within one of the individual assistance designation
                  counties listed in an attachment to the UCCP plan, and

                o the patient was actually an evacuee if costs were claimed under the Hurricane Rita
                  uncompensated care pool; and

       •    estimated, based on the sample results, the unallowable costs in the population of
            patients, as shown in Appendix B.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.



3
    Claims of $1,000 or less amounted to $1,743 for the period.


                                                            4
                                    FINDINGS AND RECOMMENDATION

The State agency did not always claim reimbursement for services provided by the Hospital in
accordance with Federal and State laws and regulations or with the approved provisions of the
UCCP plan. Of the $8,050,698 in costs claimed for services provided to 100 sampled patients,
$263,243 was allowable. However, the State agency claimed $7,787,455 of unallowable costs
for 98 of the 100 sampled patients, including:

       •   97 patients whose care was not covered under the Medicaid plan because they were
           between the ages of 21/22 and 64,

       •   11 patients who did not receive services on the dates claimed,

       •   11 patients whose costs were paid by other sources, and

       •   2 patients whose costs were reimbursed from the Hurricane Rita uncompensated care
           pool but who were not evacuees. 4

Appendix C shows a breakdown, by sampled patient, of the reasons for the unallowable costs.

The State agency claimed the unallowable costs because it (1) did not have procedures to ensure
that it claimed uncompensated care costs only for services covered under the Medicaid plan;
(2) relied on the Hospital to verify that the costs claimed were based on actual inpatient days;
(3) did not instruct the Hospital to analyze its uncompensated care claims to determine whether
payments had been received from other sources; and (4) did not have procedures to verify that
patients whose costs were claimed under the Hurricane Rita uncompensated care pool were, in
fact, evacuees.

Based on our sample results, we estimated that the State agency claimed unallowable costs
totaling at least $19,780,522.

UNALLOWABLE COSTS FOR SAMPLED PATIENTS

Services Not Covered Under the Medicaid Plan

In approving the UCCP plan, CMS specified that payment would be in accordance with both the
Medicaid plan and the UCCP plan and that expenditures above those limits were not
reimbursable. Pursuant to 32 La. Reg. 1902, reimbursement from the uncompensated care pool
was available for inpatient psychiatric services covered under the Medicaid plan. The Medicaid
plan limits IMD inpatient psychiatric coverage to individuals who are (1) under age 21, or under
age 22 if the individual was receiving such services immediately preceding the date on which he
or she reached age 22, or (2) age 65 or older.




4
    Some patients’ costs were unallowable for more than one reason. We questioned these costs only once.


                                                          5
The State agency inappropriately claimed costs for 97 patients age 23 through 64 because it did
not have procedures to ensure that it claimed uncompensated care costs only for services covered
under the Medicaid plan.

Services Not Received

Section I.C of the UCCP plan stated: “Payments will be made only for covered services provided
to eligible populations . . . .” Section 1.D of the UCCP plan stated that an attestation would be
required from providers. The attestation form, which was signed by the acting assistant secretary
of the State agency’s Office of Mental Health, stated: “I certify that on this invoice . . . the goods,
services and/or supplies . . . were actually provided to the above listed individual . . . .”

The State agency inappropriately claimed costs for 11 sampled patients who did not actually
receive the services claimed. These patients were away from the Hospital on overnight passes
for a total of 81 days claimed. According to State agency officials, if a patient was not in his or
her bed at midnight, the Hospital should not have been reimbursed for that day. 5

To ensure the validity of uncompensated care costs claimed on behalf of the Hospital, the State
agency provided the Hospital with a list of potentially eligible patients and their potential dates
of service and instructed the Hospital to perform random checks to verify the accuracy of the list.
The Hospital confirmed that the individuals on the list were patients during the specified periods
of service. However, the Hospital did not check patient records for days when patients were
away on overnight passes and made no adjustments to the State agency’s list to account for those
days. As a result, the State agency claimed costs for services that were not received.

Reimbursement Received From Other Sources

Section 1.B of the UCCP plan limited reimbursement to services provided to evacuees and
affected individuals for whom there were no other sources of payment. Section 1.D of the UCCP
plan stated that an attestation would be required from providers. The attestation form, which was
signed by the acting assistant secretary of the State agency’s Office of Mental Health, stated: “I
certify that no payment, either in full or in part, has been received from another entity on the
above listed claims.”

The State agency inappropriately claimed costs for 11 sampled patients for whom the Hospital
had received payments from other sources. Specifically, the Hospital had received Medicare
payments for 10 patients, Medicaid payments for 6 patients’ Medicare coinsurance payments,
and payments from 5 patients. 6 The Hospital did not offset its uncompensated care claims by the
amounts of these payments.

5
 In administering the Medicaid program, the State agency followed Medicare guidance regarding billable patient
days for inpatient psychiatric facilities (IPF) under the IPF prospective payment system. According to CMS’s
“Medicare Claims Processing Manual,” Pub. No. 100-04, Chapter 3, section 190.10.7, an IPF is to account for
interrupted stays by counting from the day of discharge (e.g., the day that the patient leaves the facility on a pass)
through the last day that the patient was not present in the facility at midnight. The facility should not be reimbursed
for those days.
6
    For nine patients, the Hospital received reimbursement from more than one other source.


                                                           6
The State agency did not instruct the Hospital to analyze its uncompensated care claims to
determine whether payments had been received from other sources. The Hospital also was not
aware that it should have offset the claims by payments received from other sources.

Hurricane Rita Costs Claimed for Nonevacuees

In its approval letter for the Hurricane Rita uncompensated care pool, CMS authorized the State
agency to use the pool to reimburse providers for the costs of services provided to Hurricane Rita
evacuees.

The State agency inappropriately claimed costs for two patients whose costs were reimbursed
from the Hurricane Rita uncompensated care pool but who were not evacuees. One of the
individuals had been an inpatient at the Hospital since 1990 and the other since 1999.

To determine which patients’ costs were eligible for reimbursement under the UCCP plan, the
State agency electronically identified “free care” or “no pay” patients whose last-known
residences were in designated disaster areas and who had received services during the dates
eligible for uncompensated care pool reimbursement. However, the State agency did not have
procedures to verify that patients whose costs were claimed under the Hurricane Rita
uncompensated care pool were, in fact, evacuees.

TOTAL UNALLOWABLE REIMBURSEMENT

The State agency claimed $7,787,455 in unallowable costs for 98 of the 100 sampled patients.
These costs were unallowable because they did not comply with Federal and State laws and
regulations or with the approved provisions of the UCCP plan. Based on these sample results,
we estimated that the Hospital received at least $19,780,522 of unallowable reimbursement.

RECOMMENDATION

We recommend that the State agency refund to CMS the estimated $19,780,522 in unallowable
costs claimed. Because the State’s authorization to obtain Federal reimbursement for hurricane-
related uncompensated care has ended, we are not making procedural recommendations.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency did not address our recommendation but
disagreed with our findings. The State agency said that, under its section 1115 demonstration
project, CMS permitted Louisiana to claim Federal reimbursement for “all expenditures for
medical services provided to individuals who are receiving inpatient psychiatric services under
the demonstration project in freestanding facilities.” The State agency stated that it intended that
this expenditure authority should be interpreted to include inpatient psychiatric services for all
Hospital patients, including those between ages 22 and 65.

The State agency said that it had followed the processes outlined in its approved section 1115
demonstration project and approved UCCP plan and that it had clear procedures to ensure that it



                                                 7
claimed uncompensated care costs only for services covered under the State Medicaid plan. The
State agency explained that the benefits contained in its approved section 1115 demonstration
project were broadly defined as those of the State Medicaid plan and included inpatient
psychiatric services. The State agency said that it intended to get 100-percent Federal funds for
the psychiatric services provided at the Hospital. Furthermore, the State agency said that CMS
had stated that the uncompensated care pool could be used to provide reimbursement for benefits
not covered under Title XIX in the State.

With respect to our finding that the State agency claimed reimbursement for patients whose costs
were paid by other sources, the State agency said that it had followed its processes to ensure that
payments were not duplicated.

The State agency’s comments are included in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

The State agency furnished no evidence to support its contention about the intent of the
demonstration provision and no evidence that Hospital patients were included in discussions with
CMS. Furthermore, the State agency’s intention is not evident in the broad wording of the
expenditure authority. Thus, we have no basis to conclude that CMS approved Federal
reimbursement for services provided to Hospital patients between ages 22 and 65.

As to the State agency’s assertion that CMS had stated that the uncompensated care pool could
be used to provide reimbursement for benefits not covered under Title XIX in the State, the
State’s own emergency rule, issued on March 20, 2006, limited uncompensated care pool
coverage to benefits under the State Medicaid plan. The State’s rule specified that
“reimbursement is available under the UCC [uncompensated care] pool for the following
services covered under the Louisiana Medicaid State Plan.” The covered services included
“inpatient psychiatric services (free-standing psychiatric hospitals and distinct part psychiatric
units).” Like other covered services listed in the State’s emergency rule, inpatient psychiatric
services furnished by psychiatric hospitals and distinct-part psychiatric units are covered under
Louisiana’s Medicaid State plan. However these services are covered under the State plan only
for individuals over age 65 and under age 21/22.

In addition, our audit demonstrated that the State agency’s processes for preventing and
correcting duplicate payments were not effective. The State agency provided no evidence that
the Hospital did not bill other payers or receive reimbursement from other sources.

Nothing in the State agency’s comments caused us to revise our findings or recommendation.
The State agency should refund the entire $19,780,522 to CMS.




                                                 8
APPENDIXES
                                                                                APPENDIX A
                                                                                  Page 1 of 2

                        SAMPLE DESIGN AND METHODOLOGY

AUDIT OBJECTIVE

Our objective was to determine whether the Louisiana Department of Health and Hospitals
claimed reimbursement for services provided by East Louisiana State Hospital (the Hospital) in
accordance with Federal and State laws and regulations and with the approved provisions of the
uncompensated care pool plan (the UCCP plan).

POPULATION

The population consisted of the 266 patients who received uncompensated care services or
supplies from August 24, 2005, through January 31, 2006, for which the Hospital was paid more
than $1,000.

SAMPLING FRAME

The sampling frame was a database of hurricane-related uncompensated care claims with dates
of service from August 24, 2005, through January 31, 2006, grouped by patient. The sampling
frame was limited to those patients for whom the Hospital was paid more than $1,000.

SAMPLE UNIT

The sample unit was a patient who received uncompensated care services or supplies for which
the Hospital received payment.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 patients.

SOURCE OF THE RANDOM NUMBERS

We generated the random numbers using the Office of Inspector General, Office of Audit
Services, RAT-STATS statistical sampling software.
                                                                              APPENDIX A
                                                                                Page 2 of 2

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the frame from 1 through 266. After generating
100 random numbers, we selected the corresponding frame items for our sample.

CHARACTERISTICS TO BE MEASURED

We determined whether the uncompensated care claims for each sampled patient complied with
Federal and State laws and regulations and with the approved provisions of the UCCP plan.

ESTIMATION METHODOLOGY

We used RAT-STATS to estimate the amount of unallowable payments.
                                                                   APPENDIX B


           SAMPLE RESULTS AND ESTIMATES


                        Sample Results
                                       Number
                                                       Value of
Sampling   Sample      Value of    of Patients With
                                                      Unallowable
 Frame      Size       Sample        Unallowable
                                                        Costs
  Size                                  Costs
  266        100      $8,050,698         98           $7,787,455



                            Estimates
    (Limits Calculated for a 90-Percent Confidence Interval)

                                 Estimated
                              Unallowable Costs
             Point estimate     $20,714,631
             Lower limit        $19,780,522
             Upper limit        $21,648,739
                                                                       APPENDIX C
                                                                         Page 1 of 3

REASONS FOR UNALLOWABLE COSTS FOR EACH SAMPLED PATIENT

  1   Patient was not covered under State Medicaid plan.
  2   Patient did not receive services.
  3   Patient’s cost was paid by other sources.
  4   Patient’s cost was reimbursed from the Hurricane Rita uncompensated
      care pool, but patient was not an evacuee.


Office of Inspector General Review Determinations on the 100 Sampled Patients

             Sampled                                   No. of
              Patient    1      2      3       4     Deficiencies
                 1       X                                1
                 2       X                                1
                 3       X                                1
                 4       X                                1
                 5       X                                1
                 6       X      X      X                  3
                 7       X                                1
                 8       X             X                  2
                 9       X                                1
                10       X                                1
                11       X                                1
                12       X                                1
                13       X                                1
                14       X                                1
                15       X                                1
                16       X                                1
                17       X                                1
                18       X                                1
                19       X                                1
                20       X      X                         2
                21              X                         1
                22       X                                1
                23       X                                1
                24       X      X                         2
                25       X                                1
                26       X                                1
                27       X                                1
                28       X             X                  2
                29       X                                1
                30       X                                1
                31       X                                1
                32       X                                1
                                          APPENDIX C
                                            Page 2 of 3


Sampled                      No. of
 Patient   1   2   3   4   Deficiencies
   33      X                    1
   34      X                    1
   35      X       X            2
   36      X                    1
   37      X   X   X            3
   38      X                    1
   39      X                    1
   40      X                    1
   41      X                    1
   42      X                    1
   43      X                    1
   44      X                    1
   45      X                    1
   46      X                    1
   47      X                    1
   48      X                    1
   49                           0
   50      X                    1
   51      X                    1
   52      X   X                2
   53      X   X                2
   54      X                    1
   55      X                    1
   56      X                    1
   57      X                    1
   58      X                    1
   59      X                    1
   60      X                    1
   61      X                    1
   62      X                    1
   63      X                    1
   64      X                    1
   65      X   X   X            3
   66      X                    1
   67      X                    1
   68      X                    1
   69      X                    1
   70                           0
   71      X                    1
   72      X                    1
   73      X                    1
   74      X                    1
                                             APPENDIX C
                                               Page 3 of 3


Sampled                         No. of
 Patient   1    2     3   4   Deficiencies
    75     X              X        2
    76     X                       1
    77     X              X        2
    78     X                       1
    79     X                       1
    80     X                       1
    81     X    X                  2
    82     X          X            2
    83     X                       1
    84     X    X     X            3
    85     X                       1
    86     X          X            2
    87     X                       1
    88     X    X                  2
    89     X                       1
    90     X                       1
    91     X                       1
    92     X                       1
    93     X                       1
    94     X                       1
    95     X          X            2
    96     X                       1
    97     X                       1
    98     X                       1
    99     X          X            2
   100     X                       1
  Total    97   11   11   2       121
APPENDIX D
  Page 1 of 3
APPENDIX D
  Page 2 of 3
APPENDIX D
  Page 3 of 3
